                              CLOSEOUT FOR M92020010
              !




                                 a
        On ~ebruary)1992, OIG received a telephone call from ,                          the fxst
complainant and a faculty member at               University. This complainant was concerned
about the process by which the                   State EPSCoR committee (the committee) had
selected preproposals for inclusion in EPSCoR p r o p o s a l . The complainant and his
colleague, ,                had submitted a preproposal to the committee, which, although it had
received good technical reviews, had not been included in the proposal submitted to the
Foundation. The complainant felt that the preproposal evaluation was not based on scientific
criteria, and that the criteria were poorly stated. Although asked, this complainant did not
provide the additional information needed by OIG to pursue his concerns.

        Several months later OIG received a letter sent anonymously by a scientist, presumably
a second complainant, working in the state that submitted the proposal. The letter contained
several allegations about improprieties by the committee and the people associated with it. The
scientist alleged:

1     ,-                   an ex-NSF employee in the EPSCoR program and the subject,
       received cash payments in exchange for his assistance in obtaining funds from NSF;

2      ,              an industrial partner in the EPSCoR proposal, had a conflict-of-interest
       because an employee was on the State EPSCoR committee and the firm was a partner in
       one of the funded projects; and

3      the State EPSCoR committee exhibited cronyism in the selection of preproposals to be
       included in the proposal submitted to NSF.

OIG determined that there was sufficient information in the second complainant's letter to pursue
the allegations described in that document.

       With regard to the fust allegation OIG was concerned about any possible violation of
either NSF's conflict of interest or lobby rules. With regard to conflict of interest OIG found
that the subject had not violated any of the applicable post-employment restrictions on
representational activities. OIG found that the subject had not, at any time, discussed, or been
asked to discuss, the proposal with NSF staff. OIG reviewed the Lobby Certification that
accompanied the proposal and found that no-one had been identified as receiving federal or
nonfederal funds for the purpose of influencing an agency decision regarding a proposal.

        OIG sent a letter to the chairperson of the committee requesting information about
possible lobbying activities associated with securing the award that had not been identified in the
submitted proposal. After being contacted by a source unidentified to OIG, the subject contacted
this office stating that he had not lobbied the Foundation for support for the proposal. Because
he had never reviewed the entire proposal it would have been -cult              for h h to lobby
persuasively for its support. He described his activities in connection with the proposal as
assisting the state with the preparation of the proposal submission. He agreed to send
information demonstrating that he had, for a nominal sum and at the committee's request,


                                           Page 1 of 3
                                             (32-10
                               CLOSEOUT FOR M92020010
                             of one of four program research elements contained in the proposal
                                     ntacted NSF and
                                               .   .
                                                      lobbied NSF staff for funds.
                                     -
             ..   :-..   .
       ~hortl~~theieafter  the committee provided OIG with documentation showing that the
subject was one of four individuals who were each paid a nominal sum to review different
proposal program elements. Each person was asked for a "hard-line, critical assessment to
enable [the committee] to be successful in the NSF review process" and given a list of questions
to guide their review. The chaiqerson stated that no-one, including the individuals asked to
review the program elements, had been asked to contact NSF to influence funding decisions.
The NSF program officer stated that the subject had not lobbied his program orally or in writing
for funds for the project. OIG could not find substance to support the allegation that the subject
had violated any of the conflict-of-interest rules or lobby restrictions pertinent to the NSF
proposal and award system. It appears that the proposal forms with regard to lobbying were
properly executed and submitted.

        With regard to the second allegation OIG found that EPSCoR awards are designed to
bring academic science and engineering efforts within the recipient state to nationally competitive
levels and emphasize linkages between state institutions, major research institutions, government
laboratories, and industry. The proposals must include significant industrial involvement. A
substantial portion of the award's funds must come from other than Federal government sources;
NSF's contribution is limited to a maximum of $ I S M a year for no more than three years.

        The budget materials and personnel assignments submitted with this proposal showed that
the fm in question provided funds for a specific program element whose research directly
related to its field of business. Part of the funds was in the form of in-kind support in personnel
and facilities for research. The remainder of the funds pledged by this fm came from
professional organizations with which the fm was associated. One member of the f m ' s
management team is the Chairman of the state's EPSCoR advisory committee which oversees
the efforts of all EPSCoR projects supported by six federal agencies. Another member is the
chairman of a subcommitteethat oversees another federal agency's EPSCoR award. With regard
to the allegation the participation of the f m ' s employees in the management of the state
EPSCoR efforts and the firm's participation in one of the program elements supported by the
NSF award are wholly appropriate and expected. OIG could find no evidence that the fm had
illegitimately profited from the award. OIG concluded that the second allegation did not have
substance.

        With regard to the third allegation, OIG found that the complainant and his colleague had
sent a letter to                                   A NSF detailing their concerns with the State
selection procedure. Part of the complainant's and colleague's problem stemmed from their
perception that funding from the EPSCoR program was similar to open, unsolicited proposal
competition so that any scientist in the state could apply for funds from the EPSCoR grant once
it had been awarded to the state. The --                             responded to the complainant
and his colleague describing the EPSCoR program and the expectations for EPSCoR research
projects thus:


                                           Page 2 of 3
                                              CCL-10
                             CLOSEOUT FOR M92020010
       the Foundation can not and will not intervene with the frnal selection process used
       to choose research areas for EPSCoR participation. EPSCoR is a State-based
       program and the [NSFJ can not dictate State and institutional research priorities
       beyond the fact that all research supported by EPSCoR must meet NSF and
       national standards of excellence; have the potential to become nationally
       competitive for Federal R&D funding; and be consistent with State and
       institutional priorities.

NSF staff immediately notifled the committee and the state director of the NSF EPSCoR
program of their concerns about this allegation. The state director immediately contacted the
complainant and his colleague to explain the goals of the program and suggested appropriate
changes in the state mechanisms to alleviate their remaining concerns.

       OIG determined that this allegation was not an issue for NSF; it was an internal matter
for the committee. The committee, once alerted, took appropriate action to relieve the
complainant's and his colleague's concerns.

        OIG concluded that the allegations had been based on the complainant's and colleague's
incomplete understanding of the EPSCoR program and a misunderstanding of the function of the
state committee. OIG could not find substance to any of the allegations and therefore closed this
case.




cc:    Signatories
       Inspector Geneml




                                          Page 3 of 3
                                             CCL-10
